HHS/OIG-Audit--"Review of Medicare Payments for Beneficiaries with Institutional Status, Kaiser Foundation Health Plan, Portland, Oregon, (A-05-97-00023)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status,
Kaiser Foundation Health Plan, Portland, Oregon," (A-05-97-00023)
April 27, 1998
Complete Text of Report is available in PDF format
(63 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit entitled, "Review
of Medicare Payments for Beneficiaries with Institutional Status." Our
objective was to determine if payments to Kaiser Foundation Health Plan, under
Medicare risk contract H9003, were appropriate for beneficiaries reported as
institutionalized.
We determined Kaiser received Medicare overpayments totaling $10,472 for 20
benenficiaries incorrectly classified as institutionalized. The 20 beneficiaries
were part of a statistical sample of 100 Medicare beneficiaries reported as
institutionalized during the period October 1, 1994 through September 30, 1996.
Based on our sample results, we estimate that Kaiser received Medicare overpayments
of at least $105,624 for beneficiaries incorrectly classified as institutionalized
during the audit period.